CERTIFICATE OF SERVICE
No. __________________
ELIZABETH C.,
Petitioner
v.
LOS ANGELES COUNTY DEPARTMENT OF CHILDREN AND FAMILY
SERVICES,
Respondent
I hereby certify that on this 18th day of June, 2021, I electronically filed the
Petition for Writ of Certiorari in this matter with the Clerk of the Court for the United
States Supreme Court. I further certify that on this day, I mailed to the Court by US
mail one original (pursuant to Guidance Concerning Clerk’s Office Operations, April
17, 2020) of the foregoing. I hereby certify that, as required by Sup. Ct. R. 29(3), I
served one copy of the foregoing via U.S. mail and electronic mail upon:
Tracy Dodds, Esq.
Principal Deputy Counsel
350 S. Figueroa St., Suite 700
Los Angeles, CA 90071
Email: tdodds@counsel.lacounty.gov
Counsel for Respondent
/s/ Ronald D. Tym
Ronald D. Tym

